APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Supreme Court of California
Denying Petition for Review
(July 15, 2020) .................................................... 1a
Order of the Court of Appeal of the State of
California for the Sixth Appellate District
Denying Petition for Rehearing
(April 13, 2020) ................................................... 2a
Opinion of the Court of Appeal of the State of
California for the Sixth Appellate District
(March 20, 2020) ................................................. 3a
Judgment of the Dismissal as to Mortgage
Electronic Registration Systems, Inc.
(May 15, 2017) .................................................. 17a
Order of the Superior Court of California
RE: Motion for Judgment on the Pleadings
(April 25, 2017) ................................................. 19a
OTHER DOCUMENTS
Substitution of Trustee and
Assignment of Deed of Trust
(March 22, 2010) ............................................... 36a
Corporation Assignment of Deed of Trust
(June 21, 2010) ................................................. 39a
Substitution of Trustee
(March 20, 2015) ............................................... 42a

App.1a
ORDER OF THE SUPREME COURT OF
CALIFORNIA DENYING PETITION FOR REVIEW
(JULY 15, 2020)
IN THE SUPREME COURT OF CALIFORNIA
________________________
SANGEETA BHARGAVA,

Plaintiff
and Appellant,
v.
MORTGAGE ELECTRONIC REGISTRATION
SYSTEMS, INC.,

Defendant
and Respondent.

________________________
S261830

Court of Appeal, Sixth Appellate
District-No. H044982
Before: CANTIL-SAKAUYE, Chief Justice
The request for judicial notice is denied. The
petition for review is denied.
Chin, J., was recused and did not participate.
Cantil-Sakauye
Chief Justice

App.2a
ORDER OF THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA FOR THE
SIXTH APPELLATE DISTRICT DENYING
PETITION FOR REHEARING
(APRIL 13, 2020)
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA, SIXTH APPELLATE DISTRICT
________________________
SANGEETA BHARGAVA,

Plaintiff and Appellant,
v.
MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS, INC.,

Defendant
and Respondent.

________________________
H044982

Santa Clara County Super. Ct. No. CV295113
Before: GREENWOOD, P.J., PREMO, J., and ELIA, J.
BY THE COURT:
Appellant’s petition for rehearing is denied.
/s/ Mary J. Greenwood
P.J.
Date: 04/13/2020

App.3a
OPINION OF THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA FOR THE
SIXTH APPELLATE DISTRICT
(MARCH 20, 2020)
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA, SIXTH APPELLATE DISTRICT
________________________
SANGEETA BHARGAVA,

Plaintiff
and Appellant,
v.
MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS, INC.,

Defendant
and Respondent.

________________________
H044982

(Santa Clara County Super. Ct. No. 16CV295113)
Before: GREENWOOD, P.J., PREMO, J., and ELIA, J.
Sangeeta Bhargava appeals from a judgment of
dismissal entered in favor of respondent Mortgage
Electronic Registration Systems, Inc. (MERS), after
the trial court granted MERS’s motion for judgment on
the pleadings. On appeal, Bhargava argues that the
trial court erred in granting the motion for judgment on

App.4a
the pleadings, and also seeks review of several interlocutory discovery orders made prior to MERS’s dismissal.
We find that the trial court did not err in granting
judgment on the pleadings in favor of MERS and will
affirm the judgment. Accordingly, we need not and do
not address the discovery orders.
I.

Factual and Procedural Background1
A. Facts Alleged in the Operative Pleading
Relating to MERS

On July 26, 2005, Bhargava obtained a $2,730,000
loan from Countrywide Home Loans (Countrywide),
secured by a deed of trust on her home located in Los
Altos Hills, California. The deed of trust identifies
CTC Real Estate Services (CTC) as the trustee and
MERS as the beneficiary, in its capacity as nominee
for Countrywide and its successors and assigns.
Paragraph 23 of the second amended complaint
consists of the following allegation: “Paragraph 22 of
the deed of trust grants to the Plaintiff the right to
challenge the assignments of 2010 and the right of the
defendants to foreclose upon her property. Paragraph
22 states in part that the plaintiff/borrower shall
have ‘the right . . . to bring a court action to assert
1 The factual background is based on the allegations in the operative second amended complaint and matters subject to judicial
notice. The facts alleged in the pleading are deemed to be true, but
contentions, deductions, and conclusions of law are not. (People
ex rel. Harris v. Pac Anchor Transportation, Inc. (2014) 59 Cal.4th
772, 777.) Where the allegations of the complaint conflict with
exhibits attached thereto, we accept the contents of the exhibits
as true, absent any ambiguity in those exhibits. (SC Manufactured
Homes, Inc. v. Liebert (2008) 162 Cal.App.4th 68, 83.)

App.5a
the non-existence of a default or any other defense of
Borrower to acceleration and sale.’” However, the deed
of trust is attached as an exhibit to the second
amended complaint and paragraph 22 of the deed of
trust does not, as Bhargava alleges, grant rights to
the borrower, but instead simply obliges the lender
to inform the borrower of her existing rights. The
pertinent full sentence from that paragraph—which
Bhargava has quoted only in part—reads: “The notice
[of default] shall further inform Borrower of the right
to reinstate after acceleration and the right to bring
a court action to assert the non-existence of a default
or any other defense of Borrower to acceleration and
sale.”
On March 24, 2010, MERS transferred the deed
of trust to BAC Home Loans Servicing LP, formerly
known as Countrywide and appointed ReconTrust
Company (ReconTrust) as trustee in place of CTC.
The substitution/assignment is signed by “Gary Nord,
Assistant Secretary” (Nord). Bhargava alleges that
Nord was a salaried employee of Bank of America and
was never a corporate officer of MERS, Countrywide,
or CTC.
On June 25, 2010, MERS again transferred the
deed of trust to BAC Home Loans Servicing LP,
formerly known as Countrywide.2 This substitution/
assignment is signed by “Angelica Del Toro, Assistant
Secretary” (Del Toro). Bhargava alleges that, like Nord,
Del Toro was a salaried employee of Bank of America
2 Though there is no documentation to this effect in the record
on appeal, the parties agree, at least for the purposes of this
appeal, that BAC Home Loans Servicing LP, formerly known as
Countrywide, is the predecessor in interest of Bank of America.

App.6a
and was never a corporate officer of MERS, Countrywide, or CTC.
On April 15, 2015, Bank of America recorded a
substitution of trustee, appointing Quality Loan Service
Corporation (Quality) as trustee in place of ReconTrust.
The substitution is signed by “Clarissa Wells, Assistant
Vice President” (Wells). Bhargava alleges that Wells
“is not and never was an Assistant Vice President of
[Bank of America]” but was only a salaried employee.
On that same date (i.e., April 15, 2015), Quality
recorded a notice of default. Quality recorded a second
notice of default on December 23, 2015.
On March 28, 2016, Quality recorded the notice
of trustee’s sale, which indicated that the trustee’s sale
would take place on May 4, 2016.3
In the first cause of action for declaratory relief—
the only cause of action in which MERS is named as a
defendant—Bhargava seeks a judicial declaration that
various instruments described in the second amended
complaint are “null and void” by “reasons of fraud,
lack of authority, and forgery.” These instruments
are, specifically: (1) the March 24, 2010 substitution/
assignment signed by Nord; (2) the June 25, 2010
substitution/assignment signed by Del Toro; (3) the
April 15, 2015 substitution of trustee signed by Wells;
(4) the April 15, 2015 notice of default; and (5) the
December 23, 2015 notice of default. Bhargava alleges
that Nord, Del Toro, and Wells were not officers of
3 The trustee’s sale did not proceed on that date. By order dated
November 2, 2016, the trial court denied Bhargava’s application
for a preliminary injunction against Bank of America as moot,
based on Bank of America’s representation that it would not hold
a trustee’s sale while the action was pending.

App.7a
either Bank of America or MERS, but instead were
“‘Foreclosure Specialists’ who falsely claimed to be an
‘Assistant Vice President’ of [Bank of America] or
‘Assistant Secretary’ of MERS pursuant to the verbal
instructions of their managers and supervisors at
[Bank of America].”
Bhargava filed her initial complaint against MERS
and other named defendants on May 12, 2016.4 The
trial court sustained a demurrer to that complaint
brought by MERS and other named defendants, with
leave to amend, and Bhargava filed her first amended
complaint on December 23, 2016. Bhargava subsequently sought, and the trial court granted, leave to
file the operative second amended complaint on March
9, 2017.5
B. The Motion for Judgment on the Pleadings
MERS moved for judgment on the pleadings,
arguing that Bhargava lacked standing to challenge
the instruments in question and that the claimed
defects in their execution would render the assignments
voidable, rather than void.
Following a hearing, the trial court granted
MERS’s motion for judgment on the pleadings as to
the declaratory judgment cause of action without
4 Bhargava did not include a copy of the original complaint in
her appendix.
5 The second amended complaint was essentially identical to
the first amended complaint, with the exception that Bhargava
amended paragraph 2 of the pleading to assert that the property
in question was “owner-occupied.” Bank of America and Quality,
named as defendants in the second amended complaint, are not
parties to this appeal.

App.8a
leave to amend. In its order, the trial court found
that Bhargava “lacks standing to challenge the subject
mortgage documents . . . [and] fails to plead sufficient
facts [to] support her allegations that the documents
were robo-signed and the individual signatories lacked
legal authority to execute the documents.”
Judgment was entered in favor of MERS on May
18, 2017, and Bhargava timely appealed.6
II.

Discussion
A. Requests for Judicial Notice

Before turning to the substance of Bhargava’s
arguments relating to the motion for judgment on
the pleadings, we will address the two requests for
judicial notice she filed in this court. The first, filed
on February 21, 2019, requests that this court take
judicial notice of the legislative history of amendments
to Code of Civil Procedure section 2030.300, which pertains to motions to compel further discovery responses.
6 In her appendix, Bhargava has included a motion for leave to
file a third amended complaint, accompanied by a proposed third
amended complaint. These documents were filed in the trial
court on November 27, 2018, more than a year after judgment of
dismissal was entered in favor of MERS. With limited exceptions
that do not apply in this case, on appeal we disregard arguments
relying on facts outside the record and matters that occurred
after rendition of the order being appealed. (Reserve Insurance
Co. v. Pisciotta (1982) 30 Cal.3d 800, 813 [“It is an elementary
rule of appellate procedure that, when reviewing the correctness
of a trial court’s judgment, an appellate court will consider only
matters which were part of the record at the time the judgment
was entered.”].) Accordingly, we disregard the proposed third
amended complaint in its entirety and Bhargava’s arguments
relating thereto.

App.9a
The second, filed on September 16, 2019, requests that
this court take judicial notice of an article published
in the San Francisco Daily Journal on September 11,
2019, entitled “UCLA professor uncovers nationwide
scams involving fake court orders.”
As a reviewing court, we are obligated by Evidence
Code section 451 to take judicial notice of some
matters and we are given discretion under Evidence
Code section 452 to take judicial notice of other
matters. Regardless, however, there is “a precondition
to the taking of judicial notice in either its mandatory
or permissive form—any matter to be judicially noticed
must be relevant to a material issue.” (People ex rel.
Lockyer v. Shamrock Foods Co. (2000) 24 Cal.4th
415, 422, fn. 2.) Neither of Bhargava’s requests meet
this precondition.
The legislative history of amendments to Code of
Civil Procedure section 2030.300 would only be relevant
were we to consider whether the trial court erred in
its handling of Bhargava’s motions to compel further
discovery. Because we conclude that the trial court
properly granted MERS’s motion for judgment on the
pleadings, the discovery claims are moot and the
proffered legislative history is irrelevant.
Similarly, the September 11, 2019 San Francisco
Daily Journal article addresses “forged court orders
and related scams aimed at getting webpages removed
from search engines, or ‘de-indexed,’ without a legitimate court proceeding.” Bhargava claims this article
is relevant “as it will assist this Court of Appeal in
ascertaining the pox of forgery of which the Appellant
is complaining.” While Bhargava alleges that certain
individuals—Nord, Del Toro, and Wells—committed
“forgery” in affixing their signatures to particular

App.10a
instruments, their alleged forgery is in no way similar
to the forgery discussed in the article and therefore
not relevant to a material issue in this case.
Accordingly, we deny Bhargava’s requests for judicial notice.
B. Standard of Review
“The standard of review for a motion for judgment
on the pleadings is the same as that for a general
demurrer: We treat the pleadings as admitting all of the
material facts properly pleaded, but not any contentions, deductions or conclusions of fact or law contained
therein.” (Dunn v. County of Santa Barbara (2006) 135
Cal.App.4th 1281, 1298.) We likewise will not credit the
allegations in the complaint where they are contradicted by facts that either are subject to judicial notice
or are evident from exhibits attached to the pleading.
(Hill v. Roll Internat. Corp. (2011) 195 Cal.App.4th
1295, 1300.) We review de novo whether a cause of
action has been stated as a matter of law. (Moore v.
Regents of University of California (1990) 51 Cal.3d
120, 125.) We do not review the validity of the trial
court’s reasoning, and therefore will affirm its ruling
if it was correct on any theory. (Hill, supra, at p. 1300.)
In determining whether leave to amend should
have been granted where a pleading is vulnerable to
a motion for judgment on the pleadings, we assess
“whether the defect can reasonably be cured by
amendment.” (Schonfeldt v. State of California (1998)
61 Cal.App.4th 1462, 1465.) We review a trial court’s
denial of leave to amend under an abuse of discretion
standard. (Ott v. Alfa-Laval Agri, Inc. (1995) 31 Cal.
App.4th 1439, 1448.)

App.11a
C. Standing
Civil actions “must be prosecuted in the name of
the real party in interest.” (Code Civ. Proc., § 367.) The
real party in interest is generally the person or entity
possessing the right sued upon. (Gantman v. United
Pacific Ins. Co. (1991) 232 Cal.App.3d 1560, 1566-1567.)
In Jenkins v. JPMorgan Chase Bank, N.A. (2013)
216 Cal.App.4th 497, disapproved on other grounds
in Yvanova v. New Century Mortgage Corp. (2016)
62 Cal.4th 919, 939, footnote 13 (Yvanova), the Court
of Appeal addressed whether a mortgagor has standing
to enforce or object to a securitization or transfer of a
beneficial interest under the note and deed of trust.
The court stated, “‘[b]ecause a promissory note is a
negotiable instrument, a borrower must anticipate it
can and might be transferred to another creditor. As to
plaintiff, an assignment merely substituted one creditor
for another, without changing her obligations under the
note.’” (Jenkins, supra, at p. 515.) Consequently, “[a]s
an unrelated third party to the alleged securitization,
and any other subsequent transfers of the beneficial
interest under the promissory note, [the plaintiff]
lacks standing to enforce any agreements . . . relating
to such transactions. . . . [¶] Furthermore, even if any
subsequent transfers of the promissory note were
invalid, [the plaintiff] is not the victim of such invalid
transfers because her obligations under the note
remained unchanged.” (Ibid.) As a result, the borrower
cannot base an action for wrongful foreclosure upon
the theory that the securitization or other assignments
or transfers were invalid. (Id. at pp. 513-515.)
In Yvanova, the California Supreme Court concluded that the Jenkins court “spoke too broadly in
holding a borrower lacks standing to challenge an

App.12a
assignment of the note and deed of trust to which the
borrower was neither a party nor a third party beneficiary. Jenkins’s rule may hold as to claimed defects
that would make the assignment merely voidable,
but not as to alleged defects rendering the assignment
absolutely void.” (Yvanova, supra, 62 Cal.4th at p. 939.)
However, at the outset of its decision in Yvanova, the
California Supreme Court made clear that its ruling
was narrow and was limited to cases—unlike this
one—where a nonjudicial foreclosure has already taken
place, stating “We do not hold or suggest that a
borrower may attempt to preempt a threatened nonjudicial foreclosure by a suit questioning the foreclosing
party’s right to proceed.” (Id. at p. 924, italics added.)
To that end, the court noted that, “[t]his aspect of
Jenkins, disallowing the use of a lawsuit to preempt
a nonjudicial foreclosure, is not within the scope of
our review.” (Id. at p. 934.)
The limits of Yvanova’s holding were applied in
Saterbak v. JPMorgan Chase Bank, N.A. (2016) 245
Cal.App.4th 808 (Saterbak), where the plaintiff sought
a (preforeclosure) declaratory judgment that the
assignment of her deed of trust was void, for one or
both of the following reasons: (1) the deed of trust
had been assigned into a securitization trust after
the trust’s closing date, and (2) the signature on the
assignment was either forged or robo-signed. (Id. at
p. 814.) The court held that, even in light of Yvanova,
the plaintiff lacked standing to pursue her claim.
“The crux of Saterbak’s argument is that she may bring
a preemptive action to determine whether the . . . trust
may initiate a nonjudicial foreclosure. . . . However,
California courts do not allow such preemptive suits
because they ‘would result in the impermissible inter-

App.13a
jection of the courts into a nonjudicial scheme enacted
by the California Legislature.’” (Ibid.)
We now examine whether, as Bhargava argues,
either the language of the deed of trust or her allegation
that the signatures were “forged” suffice to make her
a real party in interest.
1. Paragraph 22 of the Deed of Trust
Bhargava argues that she has standing pursuant
to paragraph 22 of the deed of trust, specifically the
language providing that the borrower has “the right
. . . to bring a court action to assert the non-existence
of a default or any other defense of Borrower to
acceleration and sale.” The alleged forgery or robosigning of the assignments and substitutions by Nord,
Del Toro, and Wells amount—in her view—to “the
legal ‘non-existence of a default or other defense of
Borrower to acceleration and sale.’” We disagree.
As discussed above, Bhargava misstates the purpose of paragraph 22. That paragraph does not grant
any rights to the borrower; rather, it describes only
what the lender must include in a notice of default.
According to paragraph 22, the notice of default must
“inform Borrower of the right to reinstate after acceleration and the right to bring a court action to assert
the non-existence of a default or any other defense of
Borrower to acceleration and sale.” (Italics added.)
Being informed of one’s (existing) rights is not
equivalent to being afforded new rights, and paragraph
22 does only the former.
Bhargava cites no authority for the proposition
that a defect in an assignment or substitution could
amount to either a “the non-existence of a default or

App.14a
any defense . . . to acceleration and sale.”7 The validity
or invalidity of any assignment of the deed of trust or
substitution of the trustee is wholly independent of
whether Bhargava is in default on her mortgage.
Finally, the court in Saterbak squarely rejected
the argument, based on identical language in plaintiff’s
deed of trust, that she “has the right to sue prior to
foreclosure in order to ‘“assert the non-existence of a
default or any other defense of Borrower to acceleration
and sale.”’” (Saterbak, supra, 245 Cal.App.4th at p.
816.) This provision of the deed of trust “do[es] not
change her standing obligations under California
law; they merely give Saterbak the power to argue any
defense the borrower may have to avoid foreclosure.”
(Ibid.) Because the borrower, in executing the deed of
trust, expressly agreed that “the [promissory] [n]ote,
together with the [deed of trust], could be sold one
or more times without notice to her[,] [there] is no
reasonable expectation from this language that the
parties intended to allow Saterbak to challenge future
assignments made to unrelated third parties.” (Id. at
p. 817.)
Accordingly, we conclude that paragraph 22 of the
deed of trust does not confer standing on Bhargava to
challenge preforeclosure assignments and substitutions.

7 Of course, as we have already pointed out, Yvanova is of no
assistance to Bhargava, as that decision is expressly limited to
cases in which a nonjudicial foreclosure has already taken place
and where the alleged defects would render the assignments void
rather than voidable. (Yvanova, supra, 62 Cal.4th at pp. 934, 939.)

App.15a
2. Forgery Versus Robo-Signing
Bhargava also claims that she has standing to pursue her claim against MERS, because she has alleged
that the instruments were forged, as opposed to simply
robo-signed. The plaintiff in Saterbak also alleged that
the assignment of her deed of trust was invalid because
it was “forged or robo-signed.” (Saterbak, supra, 245
Cal.App.4th at p. 814.) Despite this allegation of
forgery, the Saterbak court found the plaintiff lacked
standing to challenge the validity of the assignment.
(Ibid.)
We agree with Saterbak that it makes no difference what verbiage a plaintiff, in a preforeclosure posture, uses to allege that an assignment is invalid,
because “[t]he crux of [the plaintiff]’s argument is
that she may bring a preemptive action to determine
whether the . . . trust may initiate a nonjudicial foreclosure.” (Saterbak, supra, 245 Cal.App.4th at p. 814.)
Allowing the action to proceed would “‘result in the
impermissible interjection of the courts into a nonjudicial scheme enacted by the California Legislature.’”
(Ibid.)
Bhargava has not alleged sufficient facts to show
that she has standing to bring a claim for declaratory
relief against MERS and has failed to show how she
could remedy her lack of standing. Accordingly, we
conclude the trial court did not err in granting MERS’s
motion for judgment on the pleadings without leave
to amend.

App.16a
III. Disposition
The judgment is affirmed. Mortgage Electronic
Registration Systems, Inc., shall recover its costs on
appeal.
Premo, J.

WE CONCUR:
Greenwood, P.J.
Elia, J.

App.17a
JUDGMENT OF DISMISSAL AS TO MORTGAGE
ELECTRONIC REGISTRATION SYSTEMS, INC.
(MAY 15, 2017)
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
FOR THE COUNTY OF SANTA CLARA
________________________
SANGEETA BHARGAVA,

Plaintiff,
v.
BANK OF AMERICA, NA; MORTGAGE
ELECTRONIC REGISTRATION SYSTEMS, INC.;
QUALITY LOAN SERVICE CORPORATION;
MICHELLE I. MILLER; and DOES 1-20,

Defendants.

________________________
Case No. 16CV295113

Before: The Hon. William J. ELFVING,
Judge of the Superior Court.
On April 25, 2017, this Court heard the Motion
for Judgment on the Pleadings (the “Motion”) as to
the Second Amended Complaint (“SAC”) of Defendants
BANK OF AMERICA, N.A. and MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC. (“MERS”).
The SAC alleged just the first cause of action against
MERS for declaratory relief. The Court granted the

App.18a
Motion as to the first cause of action for declaratory
relief in its entirety without leave to amend.
IT IS THEREFORE HEREBY ORDERED,
ADJUDGED AND DECREED that judgment shall be
and hereby is entered in favor of MERS and against
Plaintiff Sangeeta Bhargava (“Plaintiff’) on all causes
of action alleged against MERS, and that Plaintiff shall
recover nothing against MERS in this action which
shall be dismissed as to MERS with prejudice.
/s/ The Hon. William J. Elfving
Judge of the Superior Court
Dated: 5/15/2017

App.19a
ORDER OF THE SUPERIOR COURT OF
CALIFORNIA RE: MOTION FOR
JUDGMENT ON THE PLEADINGS
(APRIL 25, 2017)
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SANTA CLARA
________________________
SANGEETA BHARGAVA,

Plaintiff,
v.
BANK OF AMERICA, NA, ET AL.,

Defendants.

________________________
Case No. 16-CV-295113

Before: The Hon. William J. ELFVING,
Judge of the Superior Court.
The motion by defendants Bank of America, N.A.
(“BANA”) and Mortgage Electronic Registration Systems, Inc. (“MERS”) (collectively, “Defendants”) for
judgment on the pleadings as to all causes of action
in the second amended complaint (“SAC”) of plaintiff
Sangeeta Bhargava (“Plaintiff’) came on for hearing
before the Honorable William J. Elfving on April 25,
2017, at 9:00 a.m. in Department 3. The matter having
been submitted, the Court finds and orders as follows:

App.20a
Factual and Procedural Background
This is a wrongful foreclosure action initiated
Plaintiff against Defendants and defendant Quality
Loan Service Corporation (“Quality”). Plaintiff owns,
and resides with her family in, a home located at
11860 Francemont Avenue, Los Altos Hills, California.
(SAC, ¶¶ 1-4, 21, 44.) On July 26, 2005, Plaintiff
obtained a loan from Countrywide Home Loans (“the
Loan”), which was secured with a Deed of Trust
(“DOT”) recorded against her home. (Id., at ¶¶ 21-22.)
MERS was listed in the DOT as the nominal beneficiary, and CTC Real Estate Services (“CTC”) was listed
as the trustee. (Id., at ¶ 22.)
On March 24, 2010, Gary Nord (“Nord”), purporting to be an Assistant Secretary of MERS, recorded an
assignment of the DOT to BAC Home Loans Servicing
(“Nord Assignment”). (SAC, ¶¶ 25-26.) The Nord
assignment also purported to substitute Recontrust
Company as trustee in place of CTC. (Ibid.) Nord,
however, has never been an employee of MERS and
was actually employed by BANA as a “Foreclosure
Specialist.” (Id., at ¶¶ 24-26.)
On June 25, 2010, Angelica Del Toro (“Del Toro”),
purporting to be an Assistant Secretary of MERS,
recorded a new assignment of the promissory note
and DOT to BAC Home Loans Servicing as a representative of MERS (“Del Toro Assignment”). (SAC,
¶¶ 28, 30.) Like Nord, Del Toro was an employee of
BANA. (Id., at ¶¶ 24, 28, 30.)
On April 15, 2015, a Substitution of Trustee was
recorded, naming Quality as trustee of the DOT.
(SAC, ¶¶ 31.) That same day, Quality recorded a Notice
of Default against the property. (Id., at ¶¶ 32, 37.) It

App.21a
recorded a second Notice of Default on December 23,
2015. (Id., at ¶ 38.) On March 28, 2016, it recorded a
Notice of Trustee Sale, which listed the date of sale
as May 4, 2016. (Id., at ¶ 39, Ex. 7.) The date of sale
was, thereafter, continued to May 18, 2016. (Id., at
¶ 46.) Defendants did not have the lawful right to
foreclose upon Plaintiff’s property because the assignments were fraudulently executed by employees of
BANA and not MERS. (Id., at ¶ 40.) Nonetheless,
BANA and Quality allowed the scheduled foreclosure
sale to proceed. (Id., at ¶ 41.) However, the property
was not sold at the sale; rather, the foreclosure is
pending. (Id., at ¶¶ 44-45.)
Based on the foregoing, Plaintiff filed the operative
SAC against Defendants and Quality, alleging causes
of action for: (1) declaratory judgment; (2) violations
of the Homeowner Bill of Rights (“HBOR”); (3) slander
of title; (4) attempted unlawful foreclosure; (5) cancellation of recorded instruments; and (6) unfair business practices.
On April 3, 2017, Defendants filed the instant
motion for judgment on the pleadings. Plaintiff filed
papers in opposition to the motion on April 17, 2017.
Defendants filed a reply on April 18, 2017.
Discussion
Defendants move for judgment on the pleadings
on the ground that the first through sixth causes of
action of the SAC fail to allege facts sufficient to constitute a cause of action. (See Code Civ. Proc., § 438,
subd. (c)(1)(B)(ii).)

App.22a
I.

Untimely Opposition

As an initial procedural matter, Plaintiff’s opposition papers are untimely. Code of Civil Procedure
1005, subdivision (b) requires all opposing papers to
be filed and served at least nine court days before the
hearing. (See Cal. Rules Ct., rule 3.1300(a) [“Unless
otherwise ordered or specifically provided by law, all
moving and supporting papers must be served and
filed in accordance with Code of Civil Procedure section
1005. . . . ”].) The motion presently before the Court
is set for hearing on April 25, 2017. Thus, Plaintiff
was required to file and serve her opposition by April
12, 2017. (See Code Civ. Proc., § 1005, subd. (b).) Plaintiff’s opposition papers were filed on April 17, 2017,
five days late. Additionally, Plaintiff did not serve
Defendants with her opposition until April 14, 2017.
Defendants indicate that as a result of the untimely
service they had insufficient time to prepare their reply.
The Court has discretion under California Rules of
Court, rule 3.1300(d) to refuse to consider late-filed
papers. (Cal. Rules Ct., rule 3.1300(d); Bozzi v. Nordstrom, Inc. (2010) 186 Cal.App.4th 755, 765.) Because
Defendants filed a substantive reply addressing the
issues raised in the opposition notwithstanding the
untimely service, the Court will consider Plaintiff’s
opposition papers. Plaintiff’s counsel is admonished
that future violations may result in the Court refusing
to consider the late-filed paper pursuant to California
Rules of Court, rule 3.1300(d).

App.23a
II.

Requests for Judicial Notice
A. Defendants’ Request

Defendants ask the Court to take judicial notice
the following documents attached to the request as
Exhibits A through Q: (A) Deed of Trust, dated July 26,
2005, recorded document number 18501431; (B) Deed
of Trust, dated February 18, 2005, recorded document number 18250186; (C) Deed of Trust, dated
March 23, 2005, recorded document number 18298937;
(D) Deed of Trust, dated February 18, 2005, recorded
document number 18250187; (E) Deed of Trust, dated
January 12, 2007, recorded document number 19271934; (F) Substitution of Trustee and Assignment of
Deed of Trust, recorded document number 20654387;
(G) Notice of Default and Election to Sell Under Deed of
Trust, recorded document number 20393643; (H) Deed
of Trust and request for Notice of Default, recorded
document number 20753500; (I) Notice of Trustee’s
Sale, recorded document number 20654388; (J)
Trustee’s Deed Upon Sale, recorded document number 20753501; (K) Notice of Rescission of Trustee’s
Deed Upon Sale, recorded document number 20913212;
(L) Notice of Trustee’s Sale, recorded document number 21119818; (M) Notice of Rescission of Trustee’s
Deed Upon Sale, recorded document number 21899120;
(N) Notice of Default and Election to Sell Under
Deed of Trust, recorded document number 22917865;
(0) Notice of Default and Election to Sell Under Deed
of Trust, recorded document number 23180788; (P)
Order After Hearing dated November 2, 2016; and
(Q) Plaintiff’s Reply to Defendant’s Opposition to Her
Motion to File a SAC filed on March 2, 2017.

App.24a
Exhibits B-E are not proper subjects of judicial
notice because they are not relevant to a material issue.
(See People ex rel. Lockyer v. Shamrock Foods Co.
(2000) 24 Cal.4th 415, 422, fn. 2 (“Lockyer ”) [“a precondition to the taking of judicial notice in either its
mandatory or permissive form-any matter to be judicially noticed must be relevant to a material issue”].)
In their papers, Defendants refer to these exhibits for
the purpose of showing that Plaintiff took equity from
the property on multiple occasions. This reference does
nothing to advance the arguments set forth in their
motion.
Exhibits A and F-O are proper subjects of judicial
notice because they are relevant to material issues
raised by the motion and they are recorded documents.
(See Fontenot v. Wells Fargo Bank, NA. (2011) 198
Cal.App.4th 256, 265, disapproved of on other grounds
in Yvanova v. New Century Mortg. Corp. (2016) 62
Cal.4th 919 [a court may take judicial notice of a
narrow list of the facts in a recorded document, such
as “the fact of a document’s recordation, the date the
document was recorded and executed, the parties to
the transaction reflected in a recorded document, and
the document’s legally operative language, assuming
there is no genuine dispute regarding the document’s
authenticity”].)
Next, Exhibit P is not a proper subject for judicial
notice even though it is a court order. By requesting
judicial notice of Exhibit P, Defendants seek to have
the Court judicially notice the fact that there is no
pending trustee’s sale, which is set forth in Exhibit
P. While courts are free to take judicial notice of the
existence of each document in a court file, including
the truth of results reached in documents such as

App.25a
orders, they may not take judicial notice of the truth of
hearsay statements in decisions and court files. (People
v. Woodell (1998) 17 Cal.4th 448, 455 (“Wooden”); see

Lockley v. Law Office of Cantrell, Green, Pekich,
Cruz & McCort (2001) 91 Cal.App.4th 875, 882; see
also Day v. Sharp (1975) 50 Cal.App.3d 904, 914

[stating that “[t]here exists a mistaken notion that
this means taking judicial notice of the existence of
facts asserted in every document of a court file,
including pleadings and affidavits . . . a court cannot
take judicial notice of hearsay allegations as being true,
just because they are part of a court record or file”].) The
hearsay statement that there is no pending trustee’s
sale is not a proper subject of judicial notice. Moreover,
the truth of the result reached in the order is not
relevant to a material issue raised by the motion.
Finally, Exhibit Q is not a proper subject for
judicial notice even though it is a court record. Defendants seek to have the Court judicially notice claims
asserted by Plaintiff in Exhibit Q. Specifically, that
the property is her principal residence and the she
moved back into the property on a particular date.
These are hearsay statements that are not judicially
noticeable. (See Wooden, supra, 17 Cal.4th at p. 455.)
For these reasons, Defendants’ request for judicial
notice is DENIED IN PART and GRANTED IN PART.
The request is DENIED as to Exhibits B-E and P-Q.
The request is GRANTED as to Exhibits A and F-O.
B. Plaintiff’s Request
Plaintiff asks the Court to take judicial notice of
the Order Re: Demurrer filed on November 22, 2016.
Because the document is not relevant to any material
issue raised by the parties, it is not a proper subject

App.26a
of judicial notice. (See Lockyer, supra, 24 Cal.4th at
p. 422, fn. 2.) Plaintiff merely refers to this court
order for background purposes. Accordingly, Plaintiff’s
request for judicial notice is DENIED.
III. Legal Standard
A motion for judgment on the pleadings is the
functional equivalent of a general demurrer. (Evans
v. California Trailer Court, Inc. (1994) 28 Cal.App.4th
540, 548; Cloud v. Northrop Grumman Corp. (1998)
67 Cal.App.4th 995, 999; Shea Homes Limited Partnership v. County of Alameda (2003) 110 Cal.App.
4th 1246, 1254 (“Shea”).) A defendant can move for
judgment on the pleadings on the ground that the
complaint does not state sufficient facts to constitute a
cause of action. (Code Civ. Proc., § 438, subd. (c)(1)
(B)(ii).) “The grounds for the motion must appear on
the face of the complaint, and in any matters subject
to judicial notice. [Citation.] The court accepts as
true all material factual allegations, giving them a
liberal construction, but it does not consider conclusions of fact or law, opinions, speculation, or allegations contrary to law or judicially noticed facts. [Citations.]” (Shea, supra, 110 Cal.App.4th at p. 1254;
Kapsimallis v. Allstate Ins. Co. (2002) 104 Cal.App.4th
667, 672.)
IV. First Cause of Action
The first cause of action alleges a claim for declaratory judgment against Defendants. Plaintiff seeks to
have both assignments of the DOT, the substitutions
of trustee, the notices of default, and the notice of
trustee sale declared null and void on the basis they

App.27a
were fraudulently executed by individuals who lacked
lawful authority to do so. (SAC, ¶¶ 51-58.)
As Defendants persuasively argue, Plaintiff lacks
standing to challenge the subject mortgage documents.
Robo-signing is the failure to conduct a review of the
evidence substantiating a borrower’s default prior to
recording or filing certain documents, including an
assignment of a deed of trust, which is what Plaintiff
alleges occurred in the SAC. (See Michael J. Weber
Living Trust v. Wells Fargo Bank, N.A. (N.D. Cal., Mar.
25, 2013, No. 13-CV-00542-JST) 2013 WL 1196959,
at *4.) Robo-signing claims often take the form of a
plaintiff alleging an employee of an entity without the
property authority signed an assignment. (See Pratap v.
Wells Fargo Bank, N.A. (N.D. Cal. 2014) 63 F.Supp.3d
1101, 1109 (“Pratap”); see also Maynard v. Wells Fargo
Bank, N.A. (S.D.N.Y Sept. 11, 2013, No. 12cv1435 AJB
(JMA)) 2013 WL 4883202, at *7-8.) Even though
Plaintiff repeatedly alleges that these documents are
void due to robo-signing, the allegations are mere legal
conclusions and are not in accordance with the law.
Plaintiff fails to plead sufficient facts support her
allegations that the documents were robo-signed and
the individual signatories lacked legal authority to
execute the documents. Moreover, contrary to Plaintiff’s assertions, it is well-settled that robo-signing
renders an assignment only voidable, not void. (See
Pratap, supra, 63 F.Supp.3d at p. 1109; see also
Mendoza v. JPMorgan Chase Bank, N.A. (2016) 6 Cal.
App.5th 802, 819; Javaheri v. JPMorgan Chase Bank,
N.A. (C.D. Cal., Aug. 13, 2012, No. 2:10-CV-08185ODW) 2012 WL 3426278, at *6.) “[N]umerous courts
have found that where a plaintiff alleges that a document is void due to robo-signing, yet does not contest

App.28a
the validity of the underlying debt, and is not a party
to the assignment, the plaintiff does not have standing
to contest the alleged fraudulent transfer.” (Pratap,
supra, 63 F.Supp.3d at p. 1109.) Here, Plaintiff does
not contest the underlying debt and her claims that
the mortgage documents are void are solely based on
the alleged robo-signing.
Because Plaintiff has already had an opportunity
to correct this defect and failed to do so, the motion
for judgment on the pleadings as to the first cause of
action is GRANTED, without leave to amend. (See
Melton v. Boustred (2010) 183 Cal.App.4th 521, 544
(“Melton”) [“the plaintiff must demonstrate a reasonable
possibility that the complaint’s defects can be cured
by amendment”]; see also Davies v. Sallie Mae, Inc.
(2008) 168 Cal.App.4th 1086, 1097 (“Davies”) [appellate
court determined that trial court did not abuse its
discretion in sustaining a demurrer without leave to
amend after plaintiff had previous opportunities to
amend the complaint]; City of Atascadero v. Merrill
Lynch, Pierce, Fenner & Smith, Inc. (1998) 68 Cal.
App.4th 445, 459 (“City of Atascadero ”) [“where the
nature of the plaintiff’s claim is clear, and under substantive law no liability exists, a court should deny
leave to amend because no amendment could change
the result”].)
V.

Second Cause of Action

The second cause of action alleges claims for violations of the HBOR against BANA. Specifically, Plaintiff
alleges that BANA violated Civil Code sections 2924,
subdivision (a)(6), 2924.17, subdivision (b), 2924f,
subdivision (b)(l), and 2923.6, subdivision (c).

App.29a
Because Plaintiff adequately states a claim for
violation of Civil Code section 2924f, subdivision (b)
(1) the Court finds that Defendants’ motion as to this
claim is not well-taken. Civil Code section 2924f,
subdivision (b)(1) requires that “before any sale of
property can be made under the power of sale contained
in any deed of trust or mortgage, or any resale resulting from a rescission for a failure of consideration . . . ,
notice of the sale thereof shall be given by posting a
written notice of the time of sale’ and of the street
address and the specific place at the street address
where the sale will be held. . . . ” Plaintiff alleges that
BANA violated this section by posting the incorrect
time on the Notice of Trustee Sale. (SAC, ¶¶ 64-65.)
Specifically, Plaintiff pleads: “The notice of trustee
sale and letter of continuance lists the sale time as
9:00 a.m., at the back of the courthouse located at
191 North Market Street, San Jose. Trustee sales are
never conducted at 9:00 a.m. at that location but
instead at either 10:00 a.m. or 11:00 a.m.” Id., at ¶ 64.)
These allegations sufficiently plead why the Notice of
Trustee Sale was incorrect and nothing else is required
to allege a violation of Civil Code section 2924f,
subdivision (b)(1).
Nonetheless, Defendants contend that this claim
fails because Plaintiff does not allege that she occupied
the property at the time of the wrongdoing alleged in
the SAC. Defendants assert that Plaintiff should be
“estopped from now asserting HBOR claims for a period
when she admittedly did not reside at the Property.”
(Ds’ Mem. Ps. & As., p. 17:11-12.) Defendants’ argument
is predicated in part on Exhibit Q, and the purported
fact that Plaintiff did not move back into the property
until sometime in 2017.

App.30a
Defendants’ argument lacks merit. To the extent
their argument is based on Exhibit Q it is improper
because the Court has not taken judicial notice of Exhibit Q and the date that Plaintiff purportedly moved
back into the property is not alleged in the SAC.
Furthermore, Plaintiff adequately alleges that the
property is her primary residence. (See SAC, ¶¶ 1-4, 21,
44; see also Civ. Code, § 2924.15, subd. (a) [requiring
a plaintiff asserting a claim under the HBOR to
plead “the property is the principal residence of the
borrower”].) Defendants do not cite any legal authority whatsoever demonstrating that Plaintiff must
also allege that she occupied the property at the time
of the wrongdoing alleged in the SAC, or that she
should be estopped from asserting her claim because
she did not previously reside in the property. (See
Badie v. Bank of America (1998) 67 Cal.App.4th 779,
784-785 [“When [a party] fails to raise a point, or
asserts it but fails to support it with reasoned argument and citations to authority, we treat the point as
waived.”]; see also Schaeffer Land Trust v. San Jose
City Council (1989) 215 Cal.App.3d 612, 619, fn. 2
[“[A] point which is merely suggested by a party’s
counsel, with no supporting argument or authority,
is deemed to be without foundation and requires no
discussion.”].)
Lastly, Defendants argue that “[t]he claim . . .
lacks any current justiciable controversy” because the
Notice of Trustee’s Sale, which set the sale for May 4,
2016, is no longer valid as the sale never went forward. This argument lacks merit as Defendants fail
to explain why Plaintiff is prevented from recovering
for the alleged violation of Civil Code section 2924f,
subdivision (b)(1) simply because the scheduled sale

App.31a
did not go forward as planned. The cases cited by
Defendants regarding the requirement of a current
justiciable controversy address claims for declaratory
relief. (See e.g., City of Cotati v. Cashman (2002) 29
Cal.4th 69, 80.) The second cause of action is not a
claim for declaratory relief and, therefore, the cases
relied upon by Defendants are inapplicable.
Because Plaintiff adequately states a claim for
violation of Civil Code section 2924f, subdivision (b)(1)
and a motion for judgment on the pleadings does not
lie to part of a cause of action, the motion for
judgment on the pleadings as to the second cause of
action is DENIED.
VI. Third Cause of Action
The third cause of action is for slander of title
against BANA. (See Stalberg v. Western Title Ins.
Co. (1994) 27 Cal.App.4th 925, 929 [slander of title
occurs when there is an unprivileged publication of a
false statement which disparages title to the property
and causes pecuniary loss].) This claim is based on
the harm allegedly caused to Plaintiff by the recording
of the fraudulently executed mortgage documents.
(SAC, ¶¶ 71-75.)
Here, as previously stated, Plaintiff fails to sufficiently allege the robo-signing and, therefore, the
fraudulent execution of the mortgage documents cannot
serve as a proper basis to this claim. (See Reed v.
Wilmington Trust, N.A. (N.D. Cal., June 3, 2016, No.
16-CV-01933-JSW) 2016 WL 3124611, at *6 [granting
motion to dismiss claim for slander of title when the
underlying robo-signing allegations were insufficiently
pled].) As the claim is predicated on the robo-signed

App.32a
documents, Plaintiff additionally fails to plead standing
to assert her claim.
Because Plaintiff has already had an opportunity
to correct this defect and failed to do so, the motion
for judgment on the pleadings as to the third cause of
action is GRANTED, without leave to amend. (See
Melton, supra, 183 Cal.App.4th at p. 544 [“the plaintiff
must demonstrate a reasonable possibility that the
complaint’s defects can be cured by amendment”]; see
also Davies, supra, 168 Cal.App.4th at p. 1097 [appellate court determined that trial court did not abuse
its discretion in sustaining a demurrer without leave
to amend after plaintiff had previous opportunities to
amend the complaint]; City of Atascadero, supra, 68 Cal
.App.4th at p. 459 [“where the nature of the plaintiff’s
claim is clear, and under substantive law no liability
exists, a court should deny leave to amend because
no amendment could change the result”].)
VII. Fourth Cause of Action
The fourth cause of action is for attempted unlawful foreclosure against BANA. Plaintiff pleads that
BANA initiated an unlawful foreclosure because the
mortgage-related documents were fraudulently executed without the required authority and, thus, it had
no authority to initiate the foreclosure. (SAC, ¶¶ 82-87.)
With regard to standing, as discussed above,
Plaintiff inadequately pleads standing to assert a cause
of action based on her allegation of robo-signing in a
pre-foreclosure context. Further, Plaintiff’s allegations
of robo-signing are insufficiently pled and not supported by facts. Thus, Defendants’ motion as to this
cause of action is well-taken.

App.33a
Because Plaintiff has already had an opportunity
to correct this defect and failed to do so, the motion
for judgment on the pleadings as to the fourth cause
of action is GRANTED, without leave to amend. (See
Melton, supra, 183 Cal.App.4th at p. 544 [“the plaintiff
must demonstrate a reasonable possibility that the
complaint’s defects can be cured by amendment”];
see also Davies, supra, 168 Cal.App.4th at p. 1097
[appellate court determined that trial court did not
abuse its discretion in sustaining a demurrer without
leave to amend after plaintiff had previous opportunities to amend the complaint]; City of Atascadero,
supra, 68 Cal.App.4th at p. 459 [“where the nature of
the plaintiff’s claim is clear, and under substantive law
no liability exists, a court should deny leave to amend
because no amendment could change the result”].)
VIII. Fifth Cause of Action
The fifth cause of action alleges a claim for cancellation of record instruments against BANA. Plaintiff
alleges the fraudulently executed mortgage-related
documents harmed her because she has been deprived
of her rights and protections as set forth in the HBOR.
(SAC, ¶¶ 91-95.)
This claim fails because, as discussed above,
Plaintiff fails to adequately plead that the mortgagerelated documents were robo-signed. Because this
claim is predicated on the documents being fraudulent,
the motion succeeds on that basis alone.
Because Plaintiff has already had an opportunity
to correct this defect and failed to do so, the motion
for judgment on the pleadings as to the fifth cause of
action is GRANTED, without leave to amend. (See
Melton, supra, 183 Cal.App.4th at p. 544 [“the plaintiff

App.34a
must demonstrate a reasonable possibility that the
complaint’s defects can be cured by amendment”]; see
also Davies, supra, 168 Cal.App.4th at p. 1097 [appellate court determined that trial court did not abuse
its discretion in sustaining a demurrer without leave
to amend after plaintiff had previous opportunities to
amend the complaint]; City of Atascadero, supra,
68 Cal.App.4th at p. 459 [“where the nature of the
plaintiff’s claim is clear, and under substantive law
no liability exists, a court should deny leave to
amend because no amendment could change the
result”].)
IX. Sixth Cause of Action
The sixth cause of action alleges a claim for unfair
business practices against BANA. This claim is predicated, in part, on BANA’s alleged fraudulent execution
of the mortgage-related documents. (SAC, ¶¶ 100-103.)
The claim is also based on the BANA’s alleged violations
of the HBOR. (Id., at ¶ 104.)
“The UCL prohibits, and provides civil remedies
for, unfair competition, which it defines as ‘any unlawful, unfair or fraudulent business act or practice.’
[Citation.] Its purpose ‘is to protect both consumers
and competitors by promoting fair competition in
commercial markets for goods and services.’ [Citations.]” (Kwikset Corp. v. Super. Court (2011) 51 Cal.
4th 310, 320.) “Because . . . section 17200 is written in
the disjunctive, it establishes three varieties of unfair
competition-acts or practices which are unlawful, or
unfair, or fraudulent. In other words, a practice is
prohibited as unfair or deceptive even if not unlawful
and vice versa.” (Puentes v. Wells Fargo Home Mort-

App.35a

gage, Inc. (2008) 160 Cal.App.4th 638, 644, citations

and quotations omitted.)

Here, Plaintiff’s second cause of action survives
Defendants’ motion based on the alleged violation of
Civil Code section 2924f, subdivision (b)(1). Consequently, that violation can properly serve as the basis
for Plaintiff’s sixth cause of action. (See Krantz v. BT
Visual Images, LLC (2001) 89 Cal.App.4th 164, 178
[the viability of a UCL claim stands or falls with the
antecedent substantive causes of action].)
Accordingly, the motion for judgment on the pleadings as to the sixth cause of action is DENIED.
/s/ William J. Elfving
Judge of the Superior Court
April 25, 2017

App.36a
SUBSTITUTION OF TRUSTEE AND
ASSIGNMENT OF DEED OF TRUST
(MARCH 22, 2010)
Recording Requested by:
Reconstruct Company
And when recorded mail Document and Tax Statements
to:
Reconstruct Company
1800 Tapo Canyon Rd., CA6-914-01-94
Simi Valley, CA 93063
________________________
ATTN: Joselyn Casillas
TS No. 09-0114908
090572741
The undersigned MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS, INC., (hereinafter referred to as Beneficiary) is the Beneficiary of that certain
Deed of Trust dated 07/26/2005, executed by RAGHAV
BHARGAVA, AND SANGEETA BHARGAVA, WIFE
AND HUSBAND AS JOINT TENANTS, Trustor, to
CTC REAL ESTATE SERVICES, as Trustee, and
recorded as Instrument No. 18501431 on 08/01/2005,
of Official Records in the County Recorder’s Office of
SANTA CLARA County, California. NOW THEREFORE, Beneficiary hereby substitutes RECONTRUST
COMPANY, N.A., WHOSE ADDRESS IS:1800 Tapo
Canyon Rd., CA6-914-01-94, SIMI VALLEY, CA 93063,
as Trustee under said Deed of Trust herein referred
to, in the place and stead of and with all rights, title,
powers, and interest of the former trustee described
above.

App.37a
FOR VALUE RECEIVED, the undersigned hereby
grants, assigns, conveys and transfers to BAC HOME
LOANS SERVICING, LP FKA COUNTRYWIDE
HOME LOANS SERVICING LP all beneficial interest
under that certain Deed of Trust described above. Said
described land: “As more fully described in the above
referenced Deed of Trust.” Together with the note or
notes therein described or referred to, the money due
and to become due thereon with the interest, and all
rights accrued or to accrue under said Deed of Trust.
MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS, INC.
BY: /s/ Gary Nord
Assistant Secretary
DATED: March 22, 2010
State of: CALIFORNIA
County of: VENTURA
On Mar 22, 2010 before me, Michelle I. Miller,
notary public, personally appeared GARY NORD, who
proved to me on the basis of satisfactory evidence to
be the person(s) whose name(s) is/are subscribed to
within instrument and acknowledged to me that
he/she/they executed the same in his/her/their authorized capacity(ies), and that by his/her/their signature
(s) on the instrument the person(s), or the entity
upon behalf of which the person(s) acted, executed
the instrument.

App.38a
I certify under PENALTY OF PERJURY under
the laws of the State of California that the foregoing
paragraph is true and correct.
WITNESS my hand and official seal.
/s/ Michelle I. Miller
Notary Public’s signature
COMM: #1836833
Notary Public California
Los Angeles County
My Comm. Expires Feb. 15, 2013

App.39a
CORPORATION ASSIGNMENT
OF DEED OF TRUST
(JUNE 21, 2010)
Recording Requested by:
Reconstruct Company
And when recorded mail Document and Tax Statements
to:
Reconstruct Company
1800 Tapo Canyon Rd., CA6-914-01-94
Simi Valley, CA 93063
________________________
TS No. 09-0114908
090572741
FOR VALUE RECEIVED, THE UNDERSIGNED
HEREBY GRANTS, ASSIGNS AND TRANSFER TO:
BAC HOME LOANS SERVICING, LP FKA
COUNTRYWIDE HOME LOANS SERVICING LP
ALL BENEFICIAL INTEREST UNDER THAT
CERTAIN DEED OF TRUST DATED 07/26/2005,
EXECUTED BY: RAGHAV BHARGAVA, AND
SANGEETA BHARGAVA, WIFE AND HUSBAND
AS JOINT TENANTS, TRUSTOR: TO CTC
REAL ESTATE SERVICES, TRUSTEE AND
RECORDED AS INSTRUMENT NO. 18501431 ON
08/01/2005, OF OFFICIAL RECORDS IN THE
COUNTY RECORDER’S OFFICE OF SANTA CLARA
COUNTY, IN THE STATE OF CALIFORNIA.
DESCRIBING THE LAND THEREIN: AS MORE
FULLY DESCRIBED IN SAID DEED OF TRUST

App.40a
TOGETHER WITH THE NOTE OR NOTES
THEREIN DESCRIBED OR REFERRED TO, THE
MONEY DUE AND TO BECOME DUE THEREON
WITH INTEREST, AND ALL RIGHTS ACCRUED
OR TO ACCRUE UNDER SAID DEED OF TRUST/
MORTGAGE.
MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS, INC.
BY: /s/ Angelica Del Toro
Assistant Secretary
DATED: 06/21/10
State of: CA
County of: VENTURA
On Jun 22, 2010 before me, Michelle I. Miller,
notary public, personally appeared ANGELICA DEL
TORO, who proved to me on the basis of satisfactory
evidence to be the person(s) whose name(s) is/are
subscribed to within instrument and acknowledged
to me that he/she/they executed the same in his/her/
their authorized capacity(ies), and that by his/her/
their signature(s) on the instrument the person(s), or
the entity upon behalf of which the person(s) acted,
executed the instrument.
I certify under PENALTY OF PERJURY under
the laws of the State of California that the foregoing
paragraph is true and correct.

App.41a
WITNESS my hand and official seal.
/s/ Michelle I. Miller
Notary Public’s signature
COMM: #1836833
Notary Public California
Los Angeles County
My Comm. Expires Feb. 15, 2013

App.42a
SUBSTITUTION OF TRUSTEE
(MARCH 20, 2015)
Recording Requested by:
STEWART TITLE
When recorded mail to:
Bank of America, Collateral Request Team
1800 Tapo Canyon Road
Simi Valley, CA 96063
________________________
TS No.: CA-15-656513-HL
Order No.: 10-4-331351-03
MERS MIN No.: 1000157-0005587386-9
WHEREAS, RAGHAV BHARGAVA, AND SANGEETA BHARGAVA, WIFE AND HUSBAND AS
JOINT TENANTS was the original Trustor, CTC
REAL ESTATE SERVICES was the original Trustee,
and MORTGAGE ELECTRONIC REGISTRATION
SYSTEMS, INC. AS NOMINEE FOR COUNTRYWIDE, HOME LOANS, INC. was the original Beneficiary under that certain Deed of Trust dated 7/26/2005
and recorded on 8/1/2005 as Instrument No. 18501431,
in book XXX, page XXX, of Official Records of SANTA
CLARA, County, CA; and
WHEREAS, the undersigned is the present Beneficiary under said Deed of Trust, and
WHEREAS, the undersigned desires to substitute
a new Trustee under said Deed of Trust in place and
stead of said original Trustee, or Successor Trustee,

App.43a
thereunder, in the manner provided, for in said Deed
of Trust,
NOW, THEREFORE, the undersigned hereby substitutes QUALITY LOAN SERVICE CORPORATION,
as Trustee under said Deed, of Trust.
BANK OF AMERICA, N.A.
BY: /s/ Clarissa Wells
Assistant Vice President
DATED: March 20, 2015
State of: Texas
County of: Dallas
Before me, Courtney Morgan, Notary Public
(insert name of notary), the undersigned officer, on
this, the 20 day of March, 2015 personally, appeared
Clarissa Wells (insert name of signer) through production of A Texas Driver’s License as identification,
who identified her to be the Assistant Vice President
of Bank of America, N.A., the person, and officer
whose name is subscribed to the foregoing instrument,
and being authorized to do so, acknowledged that
(s)he had executed the foregoing instrument as the act
of such corporation for the purpose and consideration
described and in the capacity stated.

App.44a
/s/ Courtney Morgan
Notary Public, State of Texas
Commission No.: 12820061-3
My Comm. Expires 02-02-2019

